<html>
<title> - FOCUS ON FUSION CENTERS: A PROGRESS REPORT</title>
<body><pre>[Senate Hearing 110-694]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-694
 
               FOCUS ON FUSION CENTERS: A PROGRESS REPORT

=======================================================================

                                HEARING

                               before the

                  AD HOC SUBCOMMITTEE ON STATE, LOCAL,
                    AND PRIVATE SECTOR PREPAREDNESS
                            AND INTEGRATION

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 17, 2008

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



                   U.S. GOVERNMENT PRINTING OFFICE
42-748 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


 AD HOC SUBCOMMITTEE ON STATE, LOCAL, AND PRIVATE SECTOR PREPAREDNESS 
                            AND INTEGRATION

                   MARK L. PRYOR, Arkansas, Chairman
DANIEL K. AKAKA, Hawaii              JOHN E. SUNUNU, New Hampshire
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
BARACK OBAMA, Illinois               NORM COLEMAN, Minnesota
CLAIRE McCASKILL, Missouri           PETE V. DOMENICI, New Mexico
JON TESTER, Montana                  JOHN WARNER, Virginia

                     Kristin Sharp, Staff Director
                Michael McBride, Minority Staff Director
                        Amanda Fox, Chief Clerk

                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Pryor................................................     1

                               WITNESSES
                        Thursday, April 17, 2008

Captain Charles W. Rapp, Director, Maryland Coordination and 
  Analysis Center................................................     2
Matthew Bettenhausen, Director, California Office of Homeland 
  Security.......................................................     4
Russell M. Porter, Director, State of Iowa Intelligence Fusion 
  Center.........................................................     7
Eileen R. Larence, Director, Homeland Security and Justice 
  Issues, U.S. Government Accountability Office..................    14
Jack Tomarchio, Deputy Under Secretary for Intelligence and 
  Analysis, U.S. Department of Homeland Security.................    16
Vance E. Hitch, Chief Information Officer, U.S. Department of 
  Justice........................................................    19

                     Alphabetical List of Witnesses

Bettenhausen, Mathew:
    Testimony....................................................     4
    Prepared statement...........................................    35
Hitch, Vance E.:
    Testimony....................................................    19
    Prepared statement...........................................    83
Larence, Eileen R.:
    Testimony....................................................    14
    Prepared statement...........................................    57
Porter, Russell M.:
    Testimony....................................................     7
    Prepared statement...........................................    46
Rapp, Captain Charles W.:
    Testimony....................................................     2
    Prepared statement...........................................    29
Tomarchio, Jack:
    Testimony....................................................    16
    Prepared statement...........................................    75

                                APPENDIX

Questions and responses submitted for the Record from:
    Mr. Rapp.....................................................    96
    Mr. Bettenhausen.............................................    98
    Mr. Porter...................................................   101
    Mr. Tomarchio................................................   103


               FOCUS ON FUSION CENTERS: A PROGRESS REPORT

                              ----------                              


                        THURSDAY, APRIL 17, 2008

                                   U.S. Senate,    
               Ad Hoc Subcommittee on State, Local, and    
             Private Sector Preparedness and Integration,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:02 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Mark Pryor, 
Chairman of the Subcommittee, presiding.
    Present: Senator Pryor.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. I will go ahead and call the meeting to 
order. I want to thank everyone for being here today.
    You may not remember, but years ago there was a game show 
called ``Beat the Clock.'' That is what we are doing today, 
because the Senate is trying to schedule a series of votes that 
will start at 3 or maybe 3:15 p.m.. So I am going to keep my 
comments short, but if you all want to go ahead and take your 
full 5 minutes on your opening, you can. I do not think we have 
to keep it that short, but if you want to abbreviate that, that 
is fine, too.
    Let me welcome everyone here to the Ad Hoc Subcommittee on 
State, Local, and Private Sector Preparedness and Integration. 
This hearing is entitled ``Focus on Fusion Centers: A Progress 
Report.'' We have a great witness list today that I am going to 
introduce in just a moment. In this hearing we are trying to 
assess the role of the Federal Government in coordinating with 
and providing guidance to fusion centers. And for the general 
public who may not know what a fusion center is, we are going 
to be talking about that today because there are some different 
definitions. Different States and communities have some nuances 
within their fusion centers so they are not uniform or easy to 
define. But basically fusion centers are a cooperation between 
two or more agencies that provide resources, expertise, and 
information with the goal of maximizing the ability to detect, 
prevent, investigate, apprehend, and respond to criminal and 
terrorist activity. I know that is a mouthful, but that is 
generally what they do.
    I would like to go ahead and introduce the first panel. 
After introductions you may give your 5-minute opening 
statements. Then I will have some questions. We may be joined 
by other Senators.
    First, let me welcome Captain Charles Rapp. He is the 
Director of the Maryland Coordination and Analysis Center. 
Captain Rapp is a 25-year veteran of the Baltimore County 
Police Department. In addition to his current position, he has 
held command positions as a precinct commander, criminal 
investigations commander, and academy director. He will talk 
about the day-to-day functions of a fusion center and baseline 
capabilities.
    Next, we will have Matt Bettenhausen, Homeland Security 
Adviser, State of California. For the past 3 years, he has 
served the State of California while concurrently acting as 
Chairman of the National Governors' Association's Homeland 
Security Advisory Council. Prior to that, he was DHS' first 
Director of State and Territorial Coordination. He will be 
looking at coordination and cooperation between State and 
regional fusion centers, as well as how States can use fusion 
centers to protect critical infrastructure.
    And last, we will have Russell Porter. He is the Director 
of the Iowa Intelligence Fusion Center. Mr. Porter has been 
assigned to work criminal intelligence since 1984. In addition 
to serving Iowa as Fusion Center Director and Chief of the 
Intelligence Bureau, he also holds the chairmanship of the Law 
Enforcement Intelligence Unit, the oldest law enforcement 
intelligence organization in the country. Today he will talk 
about the importance of prioritizing civil liberties and 
privacy when conducting this type of analysis.
    Captain Rapp, we will start with you.

  TESTIMONY OF CAPTAIN CHARLES W. RAPP,\1\ DIRECTOR, MARYLAND 
                COORDINATION AND ANALYSIS CENTER

    Mr. Rapp. Thank you, Chairman Pryor, and I would like to 
thank you for inviting me to provide comments to you today. The 
fusion center program I think is crucial to detecting terrorist 
activity designed to jeopardize the safety of our citizens.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Rapp appears in the Appendix on 
page 00.
---------------------------------------------------------------------------
    Obviously, my comments today are based on my experience 
managing the Maryland Coordination and Analysis Center (MCAC) 
over the past 2 years. I have learned a great deal about the 
intelligence community and the role fusion centers should play 
in that process. The level of information available to State, 
local, and tribal partners is unprecedented in volume. The flow 
of this information is greatly improved. One of our greatest 
challenges is to expeditiously process the profusion of 
information to determine what is useful to our consumers. State 
and local public safety officials require a great deal of 
information on threats and the mechanics of the threats. 
Managing the information flow is only one challenge for fusion 
centers.
    It is a highly dynamic process. We constantly adjust and 
refine our procedures to ensure maximum information relevance 
to our consumers. Local training for our analysts is key to 
achieving this end. We must teach each analyst to more 
efficiently glean any and all relevant data for their 
consumers. Federal training programs can be beneficial, but 
usually take an analyst away from the job for an extensive 
period and are not necessarily geared to the local level. We 
need to develop specialized training for State and local 
analysts that can be completed in segments and/or using a 
multifaceted method of instruction. It is also imperative that 
we make our Federal partners understand that giving us access 
to information does not necessarily equate to sharing 
information.
    Another facet of this process is to educate State and local 
managers about what information they need and what they can 
expect from the fusion centers. Many State and local managers 
narrowly seek only tactical information, while ignoring a 
broader strategic analysis that could benefit their agencies. 
The intelligence cycle and the information they could receive 
is still unclear to many of these decisionmakers.
    Collection of information is another challenge for the 
local jurisdictions. In Maryland we have gone to a regional 
concept. We now have three regional centers that are operating 
in more rural parts of the State. We hope to take those 
regional centers and collect information locally which can 
benefit the local partners of those regional centers and then 
direct their information into the MCAC as a main hub of 
information.
    In the MCAC, we will be able to take that information and 
use it with the participating agencies not only to see a better 
threat picture for the entire State of Maryland, but also 
hopefully to put information back to the local agencies, both 
from the Federal Government and from our main center, that will 
be beneficial to their jurisdictions.
    The additional critical role that fusion centers are 
fulfilling is a conduit to pass information quickly between 
States so the information is available to first responders when 
they need it. Fusion centers are poised to detect precursors to 
terrorist activity. They allow for a vigorous exchange of 
information on breaking events among first responders 
nationwide. Shootings at Virginia Tech and Northern Illinois 
University are recent examples. One of the first issues 
addressed is establishing if there is a link to terrorism. 
Obtaining and providing accurate information is essential to 
the role of fusion centers, and fusion centers need to act as a 
hub of information as well--places where information can be 
reported and take the responsibility of passing it to the first 
responders and others that need the information. Fusion centers 
are sharing more time-sensitive information about organized 
activities and gang-related activities more quickly than they 
have in the past.
    Our next largest challenge will be deciding what 
information and capabilities a fusion center should provide. 
Last year, I sat on a committee that developed a draft of 
baseline capabilities for fusion centers. This draft was meant 
to develop some core capacities and to provide some guidance as 
to the capacities that the group thought would be important for 
fusion centers to meet. The baseline capabilities were meant to 
be obtainable by each center and provide some direction on 
where they should develop. The criteria for the baseline 
document was developed based on what would satisfy current gaps 
and would benefit first responders with a statewide 
information-sharing strategy. Some of the baseline capabilities 
represent a challenge for many of the centers, including my 
own, which has not met all of the baseline capabilities needs.
    Once baseline capabilities are accepted and adopted, fusion 
centers will know where to focus efforts to develop core 
capacities. The next step will be funding the core capacities. 
Once a measure has been developed, then the value of each 
center can be assessed. However, without a consistent funding 
stream some centers may never attain the core capabilities. My 
own center depends on Homeland Security Grant Program Funds and 
Urban Area Security Initiative Funds to operate the center.
    The next step is using the core capacities to develop the 
operational components within the States. Baseline capabilities 
require a statewide threat assessment listing vulnerabilities 
and gaps from which prioritized collection requirements can be 
derived. Once the centers develop the prioritized information 
needs, they can clearly communicate that to collectors. 
Collectors will then report back to the fusion centers 
enhancing the capacity of the State to detect potential 
precursors to terrorist activity. This should then be the focal 
point for Federal agencies to synthesize their intelligence 
with any intelligence gathered on a local level. This is not 
happening. The FBI's Joint Terrorism Task Forces have been 
reluctant to integrate fusion centers into their intelligence-
gathering operations. Instead, they continue to rely on State 
and local task force members to relay information to their 
agencies. This compartmentalization of information gathering 
and sharing is counterproductive and counterintuitive to the 
fusion center concept. Without the full cooperation of our 
intelligence-gathering agencies, the effectiveness of our 
fusion centers and thereby the safety of our citizens will 
always be compromised.
    We have made many strides in developing linkages to Federal 
information streams. The Department of Homeland Security, 
Intelligence and Analysis Division, headed by Under Secretary 
Charles Allen, is proactively moving forward. Over the past 2 
years, we have developed the Homeland Security Information 
Network State and Local Intelligence Portal Community of 
Interest, known as HS SLIC, which has become a vital link and 
extremely beneficial tool for fusion centers. The advisory 
board, with one representative from each State, approves 
membership to the portal which ensures data is being shared 
with appropriate audiences. The connectivity of the States 
within this portal is very effective and allows members to 
exchange information within a secure environment.
    In addition, that advisory board has been called by Mr. 
Allen to offer perspectives to him on the information flow from 
the State and local governments to the Federal Government, and 
that has been an open dialogue which has been very beneficial 
for the States.
    With time running down, I am going to cut off there, but I 
would be happy to answer any of your questions. Thank you.
    Senator Pryor. Thank you. Mr. Bettenhausen.

  TESTIMONY OF MATTHEW BETTENHAUSEN,\1\ DIRECTOR, CALIFORNIA 
                  OFFICE OF HOMELAND SECURITY

    Mr. Bettenhausen. Thank you, Senator Pryor, and we 
appreciate your interest in this as well as your leadership in 
making America a safer, better prepared Nation, and I 
appreciate the opportunity to be here on behalf of Governor 
Schwarzenegger and the National Governors' Association.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Bettenhausen appears in the 
Appendix on page 29.
---------------------------------------------------------------------------
    Because this is also informational, I would like to share a 
couple stories with you to demonstrate why terrorism prevention 
is everybody's business.
    Prior to September 11, 2001, the view was that terrorism 
prevention and prosecution was exclusively a Federal function. 
And it was. The FBI had the exclusive jurisdiction over 
domestically--CIA and some of the other intelligence 
community--and foreign. And we had set up a number of walls and 
barriers to that. And I have spent most of my career as a 
Federal prosecutor, but I have also spent probably more than 
anybody else as a State Homeland Security Adviser, both in 
California and previously in Illinois.
    But the example that I like to use is Timothy McVeigh in 
1995. When that Oklahoma City bombing happened, the initial 
part of that investigation moved to Chicago because the Federal 
building had been bombed there but, more importantly, at the 
time the two reservation systems for the United States, Sabre 
and Apollo, were located in Chicago. And we, as a Federal 
Government, were then looking to the international connections 
to terrorism with that tragic bombing incident. And while we, 
as a Federal Government, were busying ourselves looking for 
that international connection to terrorism, there was a trooper 
who was out doing his day-in and day-out job who pulled over an 
individual for a loose license plate. And because he knew 
something was not right, he held that individual. We 
subsequently realized that Timothy McVeigh, that individual he 
held, was the perpetrator of that and changed the entire course 
of that investigation.
    Moving further along, in 1996, Eric Rudolph, the bomber of 
abortion clinics and the 1996 Olympics, again was the subject 
of a wide-ranging Federal manhunt for nearly 6 years--over 5 
years. Eric Rudolph was brought to justice by a rookie cop on 
routine patrol while he was dumpster diving behind a grocery 
store.
    What those two examples illustrate is the importance of 
local law enforcement. They are our eyes and ears that are out 
there. The combating terrorism and terrorism prevention is not 
just about the intel community and the Federal Government. In 
fact, until we fully entrust, empower, and enlist our local 
first preventers and first responders, we are not going to have 
a truly effective terrorism prevention program. They are the 
ones who can collect the dots so that they can be connected. 
This is not just about international terrorism, but situations 
like we have also had in California. Day-in and day-out crimes 
can lead to these kinds of cells, and we saw that in 
California--in the Los Angeles area--a series of convenience 
store and gas station robberies that just were connected, but 
little did we know had a huge connection to a cell that was 
intending on bombing LAX, synagogues, military recruiting 
stations, and National Guard depots, which was well along in 
their operational planning. But it was because we had taken the 
time to train individual officers on terrorism awareness that 
when we executed the search warrant on those apartments, rather 
than pass over jihadi material while they were looking for 
proceeds, the guns, and other evidence of the robbery, they 
knew that they had something more. And what ensued then was a 
model of Federal, State, county, and local law enforcement 
cooperation to dismantle and prosecute that cell, which will be 
going to trial this year.
    And when I say terrorism prevention is no longer just a 
Federal responsibility, it is everybody's business. We 
frequently talk about the public's responsibility to be 
prepared. But also, if they see something unusual, say 
something. And the Fort Dix Six case was a perfect example of 
that where an individual citizen working at a Circuit City 
where the terrorists presented their training video on how they 
might attack Fort Dix recognized that something was not right. 
And the actions of that individual citizen resulted in, again, 
another cooperative joint investigation that brought down a 
cell and protected the military folks at Fort Dix.
    So this is what is important about making sure that we 
enlist, entrust, and empower our local law enforcement and 
other first responders. This includes fire as well. And that is 
the importance of these fusion centers. It is bringing people 
together.
    The captain just talked about the fact about access. One of 
the things that we just have not gotten around to since 
September 11, 2001, is stovepiping of information. The beauty 
of fusion centers is that you can bring people in who have 
access to their databases and can then cooperate and work 
together and break down these barriers that exist and also 
ensure cooperation and coordination of effort. Terrorism 
prevention is not just about prosecution. It is about 
protecting. It is also about interdicting and stopping 
something from happening. So it is not just simply a law 
enforcement prosecutorial function.
    So our fusion centers need to be focused on all crime 
because we know terrorists use all crimes, from credit card 
fraud to the robberies we saw in Los Angeles, to finance their 
operations. They also need to be all-hazards, and when I say 
``all-hazards,'' we need to be looking at the consequences that 
can happen because we are not going to be 100 percent 
successful. We cannot bat a thousand. But we also know that we 
are--in California and throughout the Nation, there is 
earthquake risk, there are tornadoes, there are tsunamis, there 
are hurricanes that we also have to be prepared for. And so in 
that all-hazard perspective and what you also asked me to 
address is the idea that we also need to enlist the private 
sector and that these fusion centers must also have an 
infrastructure protection role. And that is critical because we 
need to be able, as we better share information on the 
international risk and our threats, vulnerabilities, and 
consequences, we need to be able to match that up in terms of 
what we need to then look at better protect in terms of the 
critical infrastructure because we know al Qaeda's interest is 
in killing a lot of American citizens as well as disrupting our 
way of life. And that includes attacking our infrastructure, 
whether it is oil pipelines, what makes our country great and 
our economy moving.
    So the idea of integrating infrastructure protection into 
that is an essential need, and that is what we have done in 
California by creating a State Terrorism Threat Assessment 
System that has a State fusion center at the top to coordinate 
across the State and then four regional fusion centers, again, 
driving this bottom up so that we have better information 
sharing.
    I see that my time is up, and we look forward to your 
questions.
    Senator Pryor. Thank you. Mr. Porter.

  TESTIMONY OF RUSSELL M. PORTER,\1\ DIRECTOR, STATE OF IOWA 
                   INTELLIGENCE FUSION CENTER

    Mr. Porter. Thank you, Mr. Chairman, and I am especially 
pleased to be here with two of my contemporaries, Mr. 
Bettenhausen and Mr. Rapp, and I appreciate the Subcommittee's 
interest in this topic.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Porter appears in the Appendix on 
page 46.
---------------------------------------------------------------------------
    I want to offer just two points: First, a brief overview 
about fusion centers and their progress; and, second, some 
remarks about a key priority that has been established by 
local, tribal, State, and Federal Governments as we have moved 
forward together.
    I appreciate your acknowledgment in my introduction about 
my 30 years of experience in law enforcement, 24 of which have 
been in the criminal intelligence business, much of which has 
been spent on advocating for the protection of privacy and 
civil liberties, and I am involved in a host of groups 
nationally that are advocating for this on behalf of fusion 
centers and to help ensure that we are successful in that area.
    In my 25 years of law enforcement intelligence experience, 
I would say that fusion centers have emerged as what may be the 
most significant change in the structural landscape of criminal 
intelligence in at least the past 25 years. Overall, we have 
seen significant, but incremental, progress in many areas of 
information sharing, such as the issuance of national security 
clearances at unprecedented levels and access to information 
previously unavailable to local and State officials: 
Collocation of personnel from all levels of government at the 
Joint Terrorism Task Forces and other locations, establishment 
of the Interagency Threat Assessment and Coordination Group 
(ITACG), and recurring policy-level meetings with local, 
tribal, State, and Federal officials through the Criminal 
Intelligence Coordinating Council, the ITACG Advisory Council, 
and other groups. Each of those has served to improve our 
information sharing, and while acknowledging the progress, we 
recognize that there is considerable work yet to be 
accomplished, and a continued sense of urgency, I think, will 
help us all maintain the momentum.
    But as we establish this national, integrated network of 
fusion centers and as we work to strengthen our information-
sharing capabilities, I think it is important to put first 
things first. And a key priority that has emerged as fusion 
centers have been developed is emphasizing the importance of 
systemic and institutional protections for privacy and civil 
liberties protections.
    In looking at the history of this type of work in the 
United States, it is one of the key areas that could pose a 
downfall if we do not give it the priority that it deserves, 
and let me give a brief history, if I may.
    The 1960s, as we all know, were a period of turbulence and 
unrest. We saw reported crime rise dramatically, and we saw 
outbreaks of civil disorder. Federal commissions and agencies 
advocated that local and State law enforcement agencies develop 
intelligence capabilities. In 1967, the President's Crime 
Commission urged every major city police department to have an 
intelligence unit. In 1968, the National Advisory Commission on 
Civil Disorders, the Kerner Commission, recommended that police 
agencies establish an intelligence system. In 1968, the 
creation of LEAA, the Law Enforcement Assistance 
Administration, provided funding and technical support from 
LEIA to establish some of these intelligence systems. And 
finally, in 1973, the National Advisory Committee on Criminal 
Justice Standards and Goals recommended that every police 
agency and every State establish and maintain the capability to 
gather and disseminate information. In fact, they recommended 
that every State establish a central gathering, analysis, and 
storage capability.
    We are starting to see much of that history again. We are 
reliving it at this time. However, unlike the 1960s and 1970s, 
when we experienced a pattern of violations of privacy and 
civil liberties in our history and in our practices, we are 
taking steps to try and prevent that from occurring by 
establishing and institutionalizing the strongest possible 
protections for privacy and civil liberties. And, in fact, I 
would market as a bright spot, as a star, the coordination 
among levels of government with respect to this particular 
issue. Rather than separately delivering training and technical 
assistance to fusion centers, the Federal partners that we 
have--in particular, the Department of Homeland Security, the 
Department of Justice, with support from the Program Manager's 
Office at the Information Sharing Environment, and the Office 
of the Director of National Intelligence, and the FBI, through 
support from Global Justice Information Sharing Initiative--
have combined their training and technical assistance in this 
area to deliver it to every fusion center in the country at the 
beginning of this process of establishing this national 
integrated network of fusion centers.
    And so as with other important issues surrounding the 
establishment of fusion centers, there is much more work to do 
in this area, but it is one of the bright spots in our progress 
with fusion centers. And on behalf of my colleagues with whom I 
work at all levels of government, I appreciate the opportunity 
to have appeared here today. Thank you for your time, and I 
look forward to any questions you may have.
    Senator Pryor. Thank you. I want to thank all of you for 
your service and for your testimony this morning. What do each 
of you see as the most important contribution that fusion 
centers are making or can make to safety and security? What is 
the most important thing? Do you want to go ahead and start, 
Mr. Rapp?
    Mr. Rapp. Sure. Thank you, Senator. I think probably the 
most important thing that we find is they are sharing 
information between States more quickly. We are taking a lot of 
information that previously would not have been necessarily 
available to other law enforcement agencies and sending that 
information out, crossing jurisdictions so you no longer have 
those boundaries.
    The other thing I think is important is we are taking 
Federal law enforcement information, and we are blending that 
with local information to make sure the beat cop has 
information from all the Federal agencies, such as ICE or FBI, 
information passed down to the street level. I think that is 
one of the key things I have never seen in my career, and that 
is working now.
    Mr. Bettenhausen. Following on, I agree wholeheartedly with 
that, and it is about leveraging the resources. Look, there are 
only tens of thousands of Federal law enforcement--sworn law 
enforcement agencies. There are over 800,000 law enforcement 
agencies sworn at the State and local level. And, again, if we 
fully enlist with them by providing them the education and 
information that they need so that they can have terrorism 
awareness training, this is a key to prevention in this 
country.
    I think the other key idea about this is, look, we are 
never--it is difficult. It was a sea change for Federal 
agencies in terms of cooperating and providing information, 
breaking down the walls, even within the Department of Justice, 
that the counterterrorism folks could not talk with the 
criminal investigation people. So breaking down these walls by 
actually having Federal partners, State partners, county and 
local working together at that level, it breaks those walls 
down. There is a lot of bureaucracy that tends to get built up, 
and it is very hard to change the business process out here in 
DC. But in the field, where the rubber meets the road, that is 
the advantage that these fusion centers bring. And just tying 
it in a little bit more, though, with everyday hazards, having 
people thinking in advance and what we are doing in terms of 
infrastructure protection, in terms of what is critical 
infrastructure, what are the cascading effects, how are we 
going to protect this, and how would we respond, whether it is 
an earthquake that knocks down a building or whether it is 
another criminal act of man, such as Timothy McVeigh, how are 
we going to respond to save lives and property first, as our 
first priority, but how do we help them by understanding what 
is there and what is critical to prevent it from becoming a 
bigger incident, and how do we quickly recover.
    Senator Pryor. Mr. Porter.
    Mr. Porter. From my perspective, fusion centers are about 
knowing your environment. For people who manage resources and 
have stewardship over resources or who must be involved in 
helping allocate those resources or change security posture, we 
have to understand the threat environment that exists out 
there, which comes from sharing information, but that then 
better allows one to leverage resources. So it is about 
reducing uncertainty, reducing or preventing strategic surprise 
and hopefully tactical surprise; and when you are homeland 
security adviser or public safety commissioner with resources 
to allocate, you want to make sure that you direct them in the 
right place based on knowing your environment.
    Senator Pryor. All three of you have touched on 
information. You have said it in different ways and talked 
about different aspects of it. But, Mr. Bettenhausen, in your 
opening statement, you mentioned the traditional problem of 
stovepiping. I am curious about your thoughts, and the panel's 
thoughts, on the progress we are making with regard to breaking 
down the stovepipes. You have all talked about how important it 
is to share information. As I understand it, you all have 
access to lots and lots and lots of different databases, some 
Federal, some otherwise. And are you able to, first, access all 
the information you need? And, second, are you able to analyze 
it and understand it and actually use it to help?
    Mr. Bettenhausen. It is a work in progress. We have made 
progress. I think all of us at the Federal, State, and local 
level are a little frustrated, 7 years after September 11, 
2001, that there still are things that need to be improved. But 
we are making good progress. Having embedded DHS analysts in 
our fusion centers, having the FBI there, having State and 
local representatives at the National Counterterrorism Center 
is key because part of the problem is that there is a 
disconnect. They do not understand at the Federal level and at 
the traditional international community. They hear us yapping 
all the time that we have information needs and information 
requirements. But what they are missing is that we are also 
intel and information producers that you need this information 
to analyze as well.
    I do continue to get frustrated. I mean, we start off on a 
lot of different pilots that the Federal Government throws out 
there that are creating new and additional stovepipes, and we 
are not breaking them down and consolidating them. But the 
fusion center helps, though, and also can, in essence, do some 
privacy and civil liberty protection because you bring people 
who have access to those databases. You ensure the measures 
that they have in place about who has appropriate access to it. 
But everybody has access to it by being together, working 
together in a fusion center. But it still troubles me.
    One of the ways that we came around to get around this is 
because--and this is the same problem for the private sector, 
and it is the same for law enforcement. Do you want me to get 
my terrorism information from law enforcement online, HISN 
online, ATAC's, all of the groups of different places that you 
could be going? I cannot have terrorism liaison officers and 
people who have this responsible in the field have to remember 
their passwords and go onto 17 different sites to search for 
information. Again, access to the information is not the same 
as sharing information.
    One of the ways that we overcame that in California is we 
created CalJRIES, and what we do as a State with our partners 
at DOJ and the Highway Patrol is we visit all of those sites 
and pull out the relevant counterterrorism information that we 
want shared with our law enforcement officers and our terrorism 
liaison officers so that they have a one-stop shop. But the 
stovepiping continues, and I am afraid the factory is still 
open here in DC.
    Senator Pryor. Do you have a comment, Mr. Porter?
    Mr. Porter. Yes, if I may just very briefly. The Global 
Justice Information Sharing Initiative, which is a Federal 
advisory committee for the Department of Justice, has done some 
great work in terms of trying to address some of these 
stovepipes. One of the projects they have underway is called 
the Global Federated Identity and Privilege Management 
Initiative, and that is one which will help address some of 
these stovepipes when that gets rolled out with more people 
engaged in that.
    Senator Pryor. OK.
    Mr. Rapp. A quick comment, Senator. Just looking at the 
Federal picture, there has been a great deal of information 
flow. We have some products in the center, like the Homeland 
Security Data Network, which is the secret-level environment, 
but we have a lot of access to that. We still have some battles 
we need to fight because there is a lot of information on 
there, and we cannot search that portal yet because DOD does 
not allow us access to search that portal. DHS has taken that 
fight with DOD, but we are still talking about it, a year after 
it was introduced to the center.
    The second thing I think we are really missing with the 
FBI, the FBI in Baltimore covers Baltimore and Delaware. They 
have about 200 agents in their office. We have just in the 
Baltimore metro area over 5,000 cops. They are starting an 
initiative where they are going to go out and look to try and 
develop sources on the street. We already have developed 
sources on the street that could benefit them. The problem is 
they still see the JTTF as information that should not be 
shared with the locals. And they can share it specifically 
through the fusion centers so it does not get broadcast out to 
a number of people.
    But those are the issues I think we need to work on because 
I think we are missing some of the local components or the 
street-level components that need to go back into the Federal 
intelligence communities.
    Senator Pryor. Some of that sounds a little cultural.
    Let me ask, Captain Rapp, a few practical questions about 
fusion centers. In a fusion center, who is the decisionmaker? 
If decisions have to be made and it is this shared environment, 
who actually has the final call?
    Mr. Rapp. In our fusion center, which is maybe a little bit 
different than the others, but, I mean, typical chain of 
command, the director would make the call if there is 
information that needs to get out. If there is a dispute 
between us and the Federal agencies, we also have the Anti-
Terrorism Advisory Council (ATAC) for the U.S. Attorney's 
Office. And we have a U.S. Attorney that sits as Chairman of 
that Council. So if it comes to butting heads between whether 
we disseminate information or not, or get it, we can always use 
the U.S. Attorney as a neutral party to decide because they are 
the ones that prosecute the cases as well.
    Senator Pryor. Is that how you all do it?
    Mr. Bettenhausen. That is true, but the ideal should be 
that nobody has ownership of the fusion center. I mean, you 
have a director and you have leadership. But it should be how 
we respond to disasters, the incident command and unified 
command that everybody should feel a part of ownership. And so 
in the ideal world, the director does not have to make that 
decision. You come to consensus. The director does have the 
final call, but the difficulty is that oftentimes, in each of 
our fusion centers, they are different. One is FBI; mostly it 
is local law enforcement. We have great leaders running our 
fusion centers. But they do not make the call. If it is 
originator controlled coming from Washington, DC--and that can 
be very frustrating if we think that this is a timely piece of 
information that gets to come out. We don't get to make that 
need-to-know call, and we have to go back up and fight the 
chain further above us. Then it is beyond just the director at 
the fusion center.
    Senator Pryor. Right. One of my colleagues in the House, 
Jane Harman, said not long ago that she feels like there should 
be an association of State fusion centers to help advocate and 
help educate. Do you all agree with Representative Harman on 
that?
    Mr. Bettenhausen. We do, and, in fact, we just had a huge 
conference, a nationwide conference in San Francisco, where we 
brought all of the fusion centers together. We have talked 
about it here, too, that this bottom-up approach, we are 
producing and having better information on local incidents that 
could have national implication or much better sharing State to 
State. At some point I think the Feds are going to see much 
more of the value in the fusion centers in terms of how much 
information we are generating and sharing.
    The Nation has broken off into regions. We are also 
cooperating in regions and, for example, for California, we 
also have States of interest where we share, for example, with 
Texas, Arizona, and New Mexico, the Southern border, that we 
are also meeting and interconnecting our fusion centers.
    So in terms of the--the national conference brings us all 
together, and then we have these regional working groups from 
the Western to the Northeast, the Southeast, and the Midwest in 
terms of having these fusion centers working together. But on a 
day-in/day-out basis, these fusion centers are connecting up on 
their own.
    Mr. Porter. Mr. Chairman, since that conference there has 
been considerable interest expressed from fusion center 
directors through the contacts that I have in these various 
organizations about trying to move forward with such a 
consortium or such a gathering as a way of trying to have a 
consolidated voice and being able to communicate on issues 
quickly and in an agile kind of way when there are questions 
that rise up about, what is happening out in the fusion center 
domain.
    Senator Pryor. OK. All three of you have positive 
experiences with fusion centers, and you feel like they are 
good. I assume you all believe in the concept, and we all 
recognize there are issues and challenges but, still, great 
concept, doing great things. If you are sitting in my chair 
here, how do you measure success? How do we know that these 
really are doing great things? I know there is a lot of 
anecdotal evidence of it, but how do we measure success?
    Mr. Bettenhausen. That is one of the difficult things 
because if nothing happens, you are proving the negative. And 
so there are a lot of things in terms of the--it is not just 
anecdotal. When you look at the prosecutions, such as the JIS 
case in California that involved prison radicalization and an 
operational cell in Los Angeles, or the Fort Dix, those things 
have been interdicted, and the work of the fusion centers has 
helped in that.
    In terms of the analysis that is being done, it is hard and 
it is a mistake that we only go down the route of prosecutions 
being the numbers that we count. And that is what FBI Director 
Mueller has talked about. The sea change that we have to have 
is that prevention is the key, not prosecution. And you are 
always going to have--I have thought about this a lot in terms 
of the metrics that you try to put on top of this. It is 
difficult because you cannot tell sometimes if you are a 
success.
    But as we get more reporting, for example, on suspicious 
incident reporting, if terrorists are targeting a site, there 
is going to be planning, there is going to be targeting, there 
is going to be operational surveillance. And they also look at 
this, if the security posture changes, they look elsewhere. But 
you are never going to know that until you ultimately unravel 
one of these things. But the more information that we get in 
collecting suspicious activity reporting--which is a metric. 
How much more are we hearing from our chemical plants about 
surveillance? How much more are we hearing from other pieces of 
key infrastructure about surveillance so that we can look? And 
do we have a rise off the baseline? And that type of reporting 
is one way that you could have a metric, but the true success 
is nothing happening, and then that is a very difficult thing 
to measure.
    Senator Pryor. Right. Let me ask, Mr. Porter, if I may, 
about privacy. When I think about the information a fusion 
center has, it is a very impressive amount of information. You 
can pull together, things like cell phone numbers, insurance 
claims, driver's license information, photos, and, you can 
really collect a lot of information on people. And that ability 
invites abuse, and I know that is one of the things you have 
focused on over the last several years. Furthermore, if we are 
not very careful with that information, it could get into the 
wrong hands.
    So let me ask about privacy. As I understand it, maybe a 
little less than half, maybe around a third of the fusion 
centers around the country have submitted privacy plans? Do you 
know?
    Mr. Porter. I think that is--all of them are in the process 
of doing that, but I think there are about--more than 20, but I 
cannot cite the specific number as of today.
    Senator Pryor. OK. So tell me what these privacy plans will 
be and why we have them and what safeguards we are putting in 
place to make sure the information is not wrongly used or falls 
into the wrong hands.
    Mr. Porter. Sure. Great question, and, again, a critically 
important issue. I appreciate your interest in it.
    First of all, in terms of the types of information that you 
mentioned, there are certainly times when I use my cell phone 
and list it on, say, a voter registration record or some other 
type of record where it gets into the public domain and it is 
available to others. And so much of that information that a 
fusion center may have access to is something that law 
enforcement agencies have access for years in investigating 
crime. But that becomes a key point, is the criminal 
predication, that is what launches an inquiry or a gathering of 
information.
    When agencies are adhering to 28 C.F.R. Part 23 in the Code 
of Federal Regulations, the regulations that govern criminal 
intelligence systems and the operating policies for those 
systems, there is a requirement that at least for the storage 
of information that it meet the level of reasonable suspicion. 
And civil liberties advocates have been very satisfied and 
supportive of that standard. And that is a threshold that is 
key in these privacy policies and civil liberties protections 
policies that they adhere to that.
    There are certainly times, however, when fusion centers are 
receiving information that does not rise to the level of 
reasonable suspicion, and so through the Criminal Intelligence 
Coordinating Council, we have drafted a tips and leads policy 
paper that identifies this issue as one that we need to get our 
hands around as we receive this information, what is the right 
way to deal with it and what is the best way to deal with it?
    So there are still some challenges there. Those privacy and 
civil liberties policy templates were developed from a broad 
array of people across not only the justice system but people 
that are civil liberties advocates and provided input into 
those to make sure we have in that framework issues that relate 
to data aggregation and ensuring that when you bring data from 
multiple sources together, you are not mixing data about Person 
A and Person B and causing some erroneous information to take 
place. That policy addresses things like that.
    Senator Pryor. Great. Well, listen, I want to thank the 
first panel. You all have been spectacular. Unfortunately, we 
are going to have to close this panel because we are going to 
be voting in 30 minutes or so. If I could ask you all to 
relinquish your seats and let the second panel come forward.
    What we will do here as a matter of logistics, we will 
allow any Senators on the Subcommittee to submit questions in 
writing. We will leave the record open for 2 weeks, so it is 
possible you all will get some written questions from various 
Subcommittee Members.
    Mr. Bettenhausen. I also did want to thank you and the 
Chairs of the overall Homeland Security Committees, both in the 
Senate and in the House, for their support for fusion centers 
and the legislation that you put to allow our Federal grant 
funds to be used for personnel. We are still struggling with 
U.S. DHS to allow that sustainment funding for these critical 
positions that are also leveraged by our State and local people 
serving there. So we appreciate your support on that. Thank 
you.
    Senator Pryor. You are more than welcome. Thank you.
    While the second panel is coming up, I will go ahead and 
introduce them like I did the first panel. First will be Eileen 
Larence. She is Director of Homeland Security and Justice for 
GAO. She joined GAO in 1979 and has managed reviews on Federal 
programs ranging from defense and intelligence systems to 
hazardous waste cleanup.
    Next we will have Jack Tomarchio, and he is Deputy Under 
Secretary of Operations at the Office of Intelligence and 
Analysis at the Department of Homeland Security. Prior to 
joining DHS in 2005, he was a national security lawyer in 
private practice.
    And third will be Van Hitch. He is the Chief Information 
Officer at DOJ and DOJ's representative to the National 
Information Sharing Council. He has an M.A. in systems 
management, a B.A. in physics, and has served also in the Navy.
    I want to welcome all of you, and, Ms. Larence, go ahead.

TESTIMONY OF EILEEN R. LARENCE,\1\ DIRECTOR, HOMELAND SECURITY 
   AND JUSTICE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Larence. Thank you, Mr. Chairman. I am pleased to 
discuss GAO's work on State and local fusion centers, what they 
are, challenges they face, and Federal support to date.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Larence appears in the Appendix 
on page 57.
---------------------------------------------------------------------------
    After September 11, 2001, States and major urban and 
regional areas realized they needed their own capability to 
collect, analyze, and share terrorism information and created 
fusion centers. They typically include personnel from State, 
local, and Federal law enforcement and homeland security 
entities; in some cases, emergency responders, the National 
Guard, and the private sector. The Federal Government provides 
centers information and access to numerous systems and sources 
of data and is creating a national network of centers to 
enhance sharing.
    Most recently, the Congress in the 9/11 Commission Act and 
the Administration in the National Strategy for Information 
Sharing called for Federal support to centers through grants, 
technology, training, and other means.
    Last fall, we reported that, based on our interviews with 
center directors in 58 State and select urban areas and our 
visits to numerous centers, we learned three things: One, 
centers vary widely; two, Federal help is addressing but has 
not fully resolved their challenges; and, three, centers are 
concerned about Federal commitment to sustaining them over the 
long term.
    To elaborate, we learned that most centers were considered 
operational, but this ranged from having 5 to 80 personnel and 
from a few to 20 member agencies. Most centers are relatively 
new, open since January 2004. Forty-one said they focused not 
only on terrorism but also on all crimes or all hazards because 
they recognized crime can be a precursor to terrorism and this 
broader focus brings more partners and more resources to the 
table.
    Law enforcement entities led most centers, and 12 were 
collocated with FBI field units, such as Joint Terrorism Task 
Forces. Centers provide intelligence products ranging from 
alerts and bulletins to in-depth reports. They take tips from 
the public and share them with Federal agencies as appropriate.
    Centers identified five major challenges that Federal 
support to date is to address, but they are not yet fully 
resolved. First, some centers said they have to access too many 
systems and get too much information that can be redundant and 
not useful, bogging down our analysts. Justice and Homeland 
Security provide centers access to classified and unclassified 
systems and networks. The agencies report they are trying to 
better define centers' information requirements, issue joint 
products, and solicit feedback on the usefulness of information 
provided. GAO has not yet assessed these efforts.
    A Federal working group was also supposed to review ways to 
streamline access to some systems, and the new Interagency 
Threat Assessment and Coordination Group, made permanent in the 
9/11 Act, is to ensure threat information is coordinated across 
Federal agencies before it is disseminated. But the group has 
had start-up problems. Continued oversight of these issues 
would be helpful.
    Second, some centers say they need more security 
clearances. It takes too long to get them, and agencies do not 
always honor each other's clearances, despite mandates to do 
so. Justice and Homeland Security continue to provide 
clearances and to reduce processing time, but were not aware of 
addressing the issue of honoring each other's clearances at the 
time of our review. Again, oversight could help here as well.
    Third, a number of centers want more specific operational 
how-to guidance and had challenges finding training for their 
analysts. Justice and Homeland Security issued fusion center 
guidelines and, more recently, draft baseline capabilities that 
outline operational standards centers should achieve. This 
helps but may not provide the detailed how-to operational steps 
some centers still need. Agencies are also providing courses, 
grant funds, and training technical assistance, but centers 
would like more help with standardized curricula for their 
analysts and perhaps a certification process.
    Fourth, some centers say that it is tough for partner 
agencies to afford to detail staff, an important source of 
personnel for centers, and to find, attract, and competitively 
pay analysts to keep them. The FBI has provided at least 200 
personnel across most centers to date, and Homeland Security 
has personnel in 23 centers. But they still worry about meeting 
long-term staffing needs.
    Finally, a number of centers are concerned about sustaining 
operations long term. Some say it is tough to compete for State 
funds and that the Federal grant process is complex, 
restricted, uncertain, and decreasing. Homeland Security has 
provided grants for fusion-related activities, expanded 
allowable costs, and gave centers more time to spend funds. But 
some centers worry about restrictions, such as 2-year limits on 
funds for analysts, and whether funds will be available long 
term.
    We recommended that the Federal Government articulate the 
role it expects to play in centers, especially in sustaining 
them. The recent National Strategy in the 9/11 Act addressed 
the Federal role and also stated that the government will help 
to sustain centers, but how or to what extent must still be 
answered.
    Mr. Chairman, that concludes my remarks, and I would be 
happy to answer any questions.
    Senator Pryor. Thank you. Mr. Tomarchio.

  TESTIMONY OF JACK TOMARCHIO,\1\ DEPUTY UNDER SECRETARY FOR 
INTELLIGENCE AND ANALYSIS, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Tomarchio. Thank you, Senator Pryor, for the 
opportunity to come before you today to talk about the progress 
fusion centers have made in the last 3 years. I hope my 
testimony helps this Subcommittee in its continuing efforts to 
assist the States and the major urban areas in the development 
and continuing improvement of these centers. In addition to my 
oral statement, I ask that my written statement, previously 
provided your staff, be incorporated into the record today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Tomarchio appears in the Appendix 
on page 75.
---------------------------------------------------------------------------
    The first and most important piece of progress I have for 
you today is that DHS' Office of Intelligence and Analysis now 
has 23 of its officers deployed and serving in fusion centers 
around the country. These officers have become the pathfinders 
for the way the Federal Government shares information and 
intelligence with its State, local, and tribal partners. These 
talented men and women are using their varied experiences and 
skills as intelligence professionals to provide their other 
Federal, State, local, and tribal partners with the information 
they need to keep America safe--and connected. Those very same 
skills allow them to cull the best of what the fusion centers 
are collecting and analyzing information and seeing that this 
information gets to where it needs to go. This has never been 
done before, and this is why Secretary Chertoff, Under 
Secretary Charlie Allen, and I are proud of these officers and 
what they have accomplished in such a relatively short period 
of time.
    Please don't take just my word for this record of 
achievement. When I was at the Fusion Center Conference in San 
Francisco in February, I was gratified by the number of State 
and local officials who came up to me and to Under Secretary 
Allen to voice their unsolicited praise for the work our 
officers are doing. I have no doubt that you will find the same 
reactions when you talk to your State's homeland security 
advisers and local law enforcement and public safety officials.
    Secretary Chertoff, Under Secretary Allen, and I have 
committed the Department to increase the number of these 
officers by the end of this fiscal year and provide them with 
all the tools that they need to succeed in their collective 
mission to prevent, protect, and respond to any threat or 
hazard that America faces.
    I am happy to report that one of those tools, the Homeland 
Security Data Network (HSDN), is now deployed in 19 fusion 
centers. HSDN, as you know, allows access to the National 
Counterterrorism Center, the NCTC, online, a classified portal 
that maintains the most current terrorism-related information 
at the secret level. HSDN also provides the fusion centers--and 
through them the States--with a window into the national 
intelligence community that they can use for their own 
information needs.
    Another progress report I am happy to deliver is one on 
security clearances. When I arrived at DHS from the private 
sector 2\1/2\ years ago, the wait time to receive a security 
clearance at the secret level was almost 2 years, and the 
backlog was enormous. Thanks to the efforts of DHS' Office of 
Intelligence Analysis and its Office of Security, we have 
dramatically reduced the amount of time it takes to grant those 
clearances and nearly eliminated the backlog. The FBI has also 
played an integral role in reducing this backlog over the past 
2 years, especially by working to establish a reciprocal 
clearance process whereby security clearances for fusion center 
personnel are recognized by both agencies, regardless of which 
agency issued the clearance.
    The fusion center program is yielding substantial returns 
on investment. In the past 6 weeks, information from two of the 
centers has been passed to a key international partner in the 
war on terrorism, who then opened cases after receiving this 
information. DHS received a letter expressing that country's 
gratitude for the information. In another case, information 
fused at a center in the Midwest was briefed to the President 
in the President's Daily Brief--a first for a fusion center. 
This information would not have been gleaned without State and 
local participation in the process, and it illustrates the 
importance of the centers to the Federal Government.
    However, while successful thus far, there is still much 
work to do in the creation of policies and procedures that 
ensure a predictable and uniform approach on how we interact 
within these centers. The State and Local Program Office within 
DHS will work hard over the next year to solidify our program 
and bring certainty to that relationship.
    I have given you these progress highlights. Now let me 
provide some additional context as to how far we have come in 
the last couple of years and some of the significant changes 
and challenges that await us as we move forward to better 
prepare the American people for the threats that they face.
    Working with our colleagues in the Department of Justice, 
we undertook the challenge of creating the Fusion Center 
Guidelines. These guidelines, which complement the President's 
National Strategy for Information Sharing, were an important 
first step in formalizing the Federal Government's relationship 
with State and local fusion centers. To assist the States and 
urban areas in meeting their intelligence and information 
needs, DHS created a Program Office within I&A to work 
specifically with the fusion centers as they begin to develop 
and grow.
    Within I&A itself, we have developed an excellent 
analytical support to our customers. The Analytical and 
Production Division, A&P, provides support specifically 
dedicated to Critical Infrastructure Protection Assessment, 
CBRNE, Borders, Radicalization, and Demographics. Each of these 
divisions has developed an analytical relationship with their 
State and local peers. As a result of these relationships, we 
have seen a tremendous growth in the number of analytical 
products, sometimes carrying the seals of four and five 
partners.
    To foster collaboration and share best practices and 
lessons learned within the fusion center network, DHS sponsors 
the Homeland Security State and Local Intelligence Community of 
Interest, HS SLIC, a virtual community of intelligence analysts 
from across the country--currently, 1,000 members from 42 
States and the District of Columbia, as well as six Federal 
departments. Through the HS SLIC, intelligence analysts across 
the country collaborate via weekly threat conference calls, 
analytic conferences, and a secure Web portal for intelligence 
information sharing at the sensitive-but-unclassified level.
    I see I am now out of time, but let me just say this in 
conclusion. The fusion centers are a new and important tool to 
keeping our Nation safe. They have made exponential progress in 
the past few years to accomplish that mission. There are still 
many challenges left to ensure that these centers live up to 
their full potential. The DHS, together with our colleagues at 
the Department of Justice, are committed to working with the 
Congress and with the thousands of State and local law 
enforcement officers, firefighters, public health officials, 
and other first responders to ensure that the security of our 
Nation and its citizens is safeguarded.
    Thank you, sir.
    Senator Pryor. Thank you.
    We will leave the record open--excuse me. We will allow 
your written statements to be part of the record. That is 
something that we will clean up here at the end, but certainly 
your written statements are part of the record.
    Mr. Hitch.

TESTIMONY OF VANCE E. HITCH,\1\ CHIEF INFORMATION OFFICER, U.S. 
                     DEPARTMENT OF JUSTICE

    Mr. Hitch. Good afternoon, Mr. Chairman, and thank you very 
much for the invitation to speak to you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Hitch appears in the Appendix on 
page 83.
---------------------------------------------------------------------------
    On October 31, 2007, the President issued and released the 
National Strategy for Information Sharing which basically 
describes the vision and road map for how the various 
components of the Federal Government will work with State, 
local, and tribal, as well as private sector officials across 
the Nation. As both the Chief Information Officer and the 
Information Sharing Council representative for the Department 
of Justice, I am very proud to discuss the accomplishments of 
the Department in the area of fusion center support. This is 
truly a departmental effort. I am really here representing many 
offices, not only the Office of the CIO, the Bureau of Justice 
Assistance, the Office of Privacy and Civil Liberties, the 
Executive Office of the U.S. Attorneys, and, of course, the 
FBI.
    The FBI is really our front line for direct operational 
support to the fusion centers, as you have heard in some of the 
other testimonies. But the other DOJ law enforcement offices 
also make contributions on a daily basis to the fusion centers.
    Today, I will highlight some of the Department's efforts to 
implement the National Strategy for Information Sharing as well 
as the intent of Congress per the 9/11 Act.
    As an instrumental partner in all of this is the Attorney 
General's Advisory Committee, which you have heard a little bit 
about today, called Global. BJA started the Global Justice 
Information Sharing Initiative and its subgroup, the Criminal 
Intelligence Coordinating Council, over 8 years ago. And that 
was before September 11, 2001. And the CICC has not only 
nurtured the idea, the framework, and developed guidelines for 
fusion centers, but also it has worked to ensure that these 
fusion centers are successful in their stated missions.
    We are preparing to release, as you have heard, new fusion 
center baseline standards in May 2008, which will serve as the 
foundational elements for integrating fusion centers into the 
Information Sharing Environment, measuring success and 
facilitating ongoing operations. Much of the progress we have 
made can be credited to Ambassador Ted McNamara in his role as 
Program Manager for the Information Sharing Environment. He has 
brought the agencies together to make this network of fusion 
centers a reality. We coordinate all of our fusion center 
efforts, along with DHS and DNI, via the National Fusion Center 
Coordinating Group, which has representation within DOJ among 
four of our offices. The NFCCG has helped move the ball forward 
by getting Federal officials to agree to plans while also 
pulling the local representatives together to prioritize their 
needs.
    While many of these fusion centers play a key role in 
preventing terrorist activities, I cannot overemphasize the 
valuable role they can and do play in reducing all types of 
crime. These fusion centers play an important role in 
protecting their communities by fostering something we call 
information-led policing efforts and focusing resources on the 
biggest local problems.
    Fusion centers, as you know, first sprang up after 
September 11, 2001, as a mechanism to coordinate and share 
information among jurisdictions. Their main value-add is 
putting people and information together to connect the dots. 
Fusion centers are critical to helping solve interstate and 
national crime, such as drug or gun trafficking. My office, on 
behalf of the Deputy Attorney General, plans and coordinates 
the Law Enforcement Information Sharing Plan, which I developed 
in the year 2004. We are now beginning to see the benefits of 
this plan as we roll out sharing solutions across the country.
    I could talk for a long time about that, but we will refer 
this Subcommittee to my OCIO website and also a website called 
NIEM for further technology information.
    My colleague from DHS has discussed the sharing of 
classified information and the necessary safeguards and 
protections that must be employed. With regard to sensitive-
but-unclassified information, where really the bulk of 
information sharing can and should occur, we have worked very 
closely with the DHS element of ICE to make our approach both 
joint and seamless to the State and locals.
    Also, fusion centers operate under a multitude of 
regulatory frameworks intended to ensure that information is 
handled in a way that protects both the privacy and the legal 
rights of Americans. Fusion centers are owned and operated by 
State and local governments, and they are required to comply 
not only with State and local laws but also Federal laws.
    Also, grants awarded by both DOJ and DHS in 2007 included 
conditional language that mandated the use of the National 
Information Exchange Model (NIEM), for all technology projects 
to assure that they will be interoperable and be able to share 
information. This is significant for two reasons in that it 
validated the use of NIEM and it also illustrates that DHS and 
DOJ are basically on the same page on technical issues.
    In conclusion, I would like to leave this Subcommittee with 
one final thought. Validating a negative is just as important 
as proving a positive. Said differently, building an integrated 
network of fusion centers will enable local decisionmakers to 
quickly know if an event is either local or national in scope.
    Just recently, here in the Nation's capital, we had two 
current examples, with the Pope's visit and the recent food 
poisoning scare at Reagan National Airport. State and Federal 
officials worked together to create an excellent threat 
assessment for the Holy Father as he traveled from Maryland to 
DC to New York, and on April 3, the fusion centers were able to 
quickly respond to an event that initially caused alarm and 
identify it as non-terrorist so that counterterrorism and law 
enforcement forces were not mobilized for an isolated bad-fish 
issue at a local hotel.
    We, in the Federal Government, must empower the fusion 
centers, leverage them, and help them build their capabilities. 
There is much work to be done, but we have made a lot of 
progress so far and look forward to providing Congress with 
updates on our progress.
    Thank you, and I would be happy to answer any questions.
    Senator Pryor. Thank you, and I thank all of you for your 
testimony and your statements.
    Let me start with you, Ms. Larence. Your GAO report, which 
I believe was dated October of last year, roughly 6 months ago. 
Are you aware of anything that has changed in the last 6 months 
that you might want to update your report?
    Ms. Larence. No, sir. We did do some basic updating with 
both the Departments and the recent legislation that came out, 
the National Strategy that came out since our report was 
updated. And we also had staff in the National Fusion Center 
Conference recently in March that helped us to make sure that 
the issues that we were talking about were still relevant.
    Senator Pryor. Ms. Larence, you have been able to look at 
these fusion centers objectively. As I understand it, you have 
identified a number of things that are very promising and very 
positive, and then you have identified some areas where they 
have their challenges and they need to resolve those and 
improve, etc.
    You are probably the most objective person in the room 
about this. What do you think the next step for these fusion 
centers is? What are the areas where they really need to focus 
to take the concept of fusion center where it is really 
achieving the objective?
    Ms. Larence. I think they have a couple of issues to deal 
with. One, as we mentioned, the centers vary tremendously. If 
you have been to New York City's center, it is the gold 
standard for fusion centers. I am not suggesting that all 
centers have those capabilities, but there are other centers 
that are just in the planning phases. And so some centers still 
need basic help to maintain this baseline level of capability, 
and they need help developing their fusion process and 
developing analysts that have the capabilities to do the work 
that they need to do on the information.
    I think, second, the biggest concern, since a lot of the 
centers--not all of them, because some of them are well funded 
through their State partners, but some of the centers are very 
concerned about their ability to sustain operations long term. 
Some are very dependent on Federal grants, but there are time 
limits to those grants, and they are concerned about being able 
to compete for State funds if Federal grants do dry up.
    So I think funding and building analytical capabilities are 
probably two of the most important pieces that they are facing.
    Senator Pryor. All right. Let me ask about that grant piece 
because I have heard from some local officials that it is hard 
for them to really plan for the future if they are not certain 
about their funding sources.
    Do you have a recommendation on what the Congress or the 
Federal agencies should do to make sure that these local fusion 
centers can plan?
    Ms. Larence. Well, I think our recommendation put on the 
table the policy call that the Federal Government needs to 
decide whether it wants to be sort of more of a weed-and-seed 
program, so they provide initial funding to get these centers 
started, but then the centers really need to develop some other 
mechanisms to sustain operations over the long term; or if the 
Federal Government is building a national network of centers, 
relying on these centers, asking them to meet baseline 
capabilities, then does the Federal Government feel an 
obligation to be able to continue to fund these centers over 
the long term? So I think that is probably the policy trade-off 
call there, sir.
    Senator Pryor. I see. Let me ask our two Federal agency 
witnesses about the issue of funding these centers long term. I 
know to some extent that is a Congressional question, but it 
also is an agency departmental question as well.
    Do you think that we should make a long-term commitment to 
funding these fusion centers. Let me start with you, Mr. 
Tomarchio.
    Mr. Tomarchio. Senator Pryor, I think that would be a well-
reasoned consideration by the Federal Government. We see about 
58 fusion centers that are up and running right now. As Ms. 
Larence said, they are in various stages of maturity. Some are 
very robust. Others are really just getting their sea legs. But 
the problems that we see across the full spectrum of the fusion 
centers are, I think, fairly consistent. There are training 
issues, and there are issues of connectivity and certainly 
issues of sustainability. And I know when we were at the 
National Fusion Center Conference in San Francisco, I spoke to 
a number of folks from around the country, and several of the 
fusion centers felt that they were living on borrowed time. And 
if you can imagine a dark black map of the United States with a 
light in the different States that have the fusion centers. I 
think it is not beyond the pale that within a certain period of 
time, you will see lights blinking out. And I think we need to 
recognize that because the advancements that we have made and 
that have been made by the State and locals within the fusion 
centers and their interrelationship with the Federal Government 
and the intelligence community and the Federal law enforcement 
community have been, I think, very admirable. And for us to go 
back to square one and say, well, that was a great idea but we 
have a funding issue and, I am sorry, it is not going to work, 
I think that would be a disservice not only to the country, but 
it would certainly be a disservice to the dedicated folks that 
work in the State and local fusion centers around the country.
    So I think it is a very prudent approach for, I think, the 
Congress to take a real hard look at that as a possible 
solution.
    Senator Pryor. OK. Did you have anything you wanted to add 
to that, Mr. Hitch?
    Mr. Hitch. Yes. I agree with that very much. I think fusion 
centers have been and will continue to be a prudent investment 
in public safety. I think that it should be a joint investment, 
however, not fully funded by the Federal Government but 
certainly a significant share in funding by the Federal 
Government, but also State and local, because of the point that 
I made earlier how important fusion centers are to the solving 
of local crime and cross-border crime and so forth. And, also, 
the fact that while we are developing standards across the 
board and there are certain things that we want of every fusion 
center, each fusion center has to be customized, to some 
extent, to its local environment. A fusion center for Delaware 
is going to be very different from a fusion center for 
California.
    But I do think we owe them a horizon of funding so that 
they know what to expect and, therefore, they can plan because 
I think they think it is a good idea, too. So I think we all 
think it is a good idea, but without a funding horizon and an 
expectation of what they will get, they cannot really plan.
    Senator Pryor. I am glad you mentioned this idea that each 
fusion center should be customized to the locality where they 
are because that does make sense. But it also does raise an 
administrative question from the Federal end because they may 
be so different that, if you are not careful, they may not be 
meeting the objectives that the Federal Government has for 
them. The Federal Government has an interest in the State and 
local law enforcement being very effective, and I think 
everybody agrees with that. But, still, there are other Federal 
objectives that some of these may not meet.
    So do you think we should have a set of standard criteria 
for all of them? Or do you think it really should be a fusion-
center-by-fusion-center analysis for the Federal Government?
    Mr. Hitch. Well, I believe that there are standards that 
all of them should meet, and, in fact, as Mr. Porter mentioned 
in the last panel, there is a set of what we call baseline 
standards that are being developed right now by Global, which 
is the group that I mentioned earlier that is supported by the 
Department of Justice. They are working with the fusion center 
heads to develop performance criteria and baseline capabilities 
that any fusion center should do. That does not mean that they 
are all going to look alike. It is not a cookie cutter. But it 
does give some baseline capabilities and some measures of 
success so that we know when they are doing their job.
    Senator Pryor. Have you all had the experience yet where 
one of these fusion center's objectives really are at odds with 
your objectives? Have you run across that situation yet?
    Mr. Hitch. I have not run into that situation. They all 
seem to be welcoming of the support that we, as a Department, 
have given them. They all appreciate the work that Global has 
done and the ongoing work that they have done, and certainly 
the FBI and its tremendous ongoing presence in their 
facilities.
    That does not mean there will not be operational issues 
that have to be worked out. But I think in general the 
congruence of objectives is pretty good.
    Senator Pryor. Did you want to comment on that, Mr. 
Tomarchio?
    Mr. Tomarchio. I would concur with that, Senator. I have 
had no experience where we have been at odds with any of the 
fusion centers, and I have been to about 32 of these centers 
around the country. And these people really want to do the 
right thing for their communities, and they are working very 
hard to provide the level of protection that they think that 
they are mandated to do. So we have had no issues.
    Senator Pryor. Yes, that has been my experience as well. I 
have not heard about problems in that regard, but I wanted to 
see if you all were hearing any.
    Let me also ask, Mr. Tomarchio, it is really the same 
question I asked the previous panel, and all of you have sort 
of touched on this already. But, Mr. Tomarchio, how do you 
measure success with these fusion centers? You talked about 
objective criteria. I think, Ms. Larence, you talked about 
having standards and criteria, etc. So how do we measure 
success? How do we know that they are really effective and that 
they are worthwhile and that they are really doing the job out 
there?
    Mr. Tomarchio. Certainly. There are a couple of metrics 
that I like to look at.
    First of all, I think that the amount of information that 
is being passed between fusion centers and the Federal 
Government and the Federal intelligence community, it is good 
and valuable information. And one of the things that we were 
concerned about was that we did not want to just have 
information passing for the sake of passing information. We 
wanted to make sure that the information was relevant, was 
important, and resulted in actionable intelligence. And we are 
seeing that. We are seeing good products.
    We are also seeing a great understanding of what the 
requirements are at the State and local level from the 
intelligence community, and they are learning what our 
requirements are of them. And what we are seeing is we are 
learning about things that happened at the local level that 
within the Beltway we do not see. You can put a bunch of 
analysts at the FBI or the DHS to look at the issue of prison 
radicalization in Illinois. But the persons that are going to 
know what the situation is with prison radicalization in 
Illinois are the folks in Illinois. And we are seeing that 
information filter up to the Beltway and to the community, and 
that is important.
    I think also, as I think Mr. Bettenhausen said, the idea of 
proving a negative is important, too. I can give you a case in 
point. A year ago yesterday, we had the tragedy at Virginia 
Tech, and when that happened, the Virginia Fusion Center within 
minutes of getting the information, they made a determination, 
they put out horizontally to other fusion centers around the 
country that this is an isolated activity of a deranged 
individual; there is no nexus to terrorism, and there is no 
need for all the colleges and universities around the country 
to go to Def-Con 1 because there was a possible raft of these 
shootings. And that was done very quickly. They were able to 
spin down concern, and that in itself is important.
    So I think that you see situations like that--that is a 
metric of success for me.
    Senator Pryor. Did you want to add something to that?
    Mr. Hitch. I was just nodding my head because I agree with 
what he was saying. One of the things--this is a challenge, 
obviously. Ultimately, we want to find success stories, and we 
want to find things that were prevented. And that is the gold 
standard. There is nothing that will really live up to that.
    But, as an IT guy, one of the things that we try to build 
into our systems is logs and things that will measure the 
amount of activity and the amount of what in law enforcement is 
called deconflictions. When you are interested in something and 
you then get in contact with another law enforcement officer 
from a completely different jurisdiction, perhaps across the 
country because of the information that you found--and we log 
that stuff in. We ask for feedback as part of the information 
systems process so that we can begin getting real measures of 
success as an intermediate level, below the gold standard, but 
certainly something that would let us know that there is a lot 
of activity and there is a lot of good dialogue that is 
happening.
    Senator Pryor. OK, great. Mr. Tomarchio, let me ask you 
about a very specific fiscal year 2008 DHS grant issue. Fiscal 
year 2008 DHS grant guidance apparently restricts how DHS 
grants to State and local fusion centers can be spent in ways 
that contradict congressional intent. Specifically, the 
guidance limits spending on fusion center maintenance and 
sustainment.
    Does DHS have any plan to fix the problem by changing the 
guidance? Do you know anything about that?
    Mr. Tomarchio. I do know a little bit, probably enough to 
get me in trouble. I know that one of the things that we do at 
the Department, especially with regard to our folks that deal 
with the grants, is we really try to listen to the needs of the 
folks in the fusion centers. And, nothing is etched in stone, 
and we are trying to take their input with regard to what their 
needs are.
    Now, for example, bricks and mortar, which I think that 
refers to, is right now--grant money for bricks and mortar is 
prohibited. We have talked to some fusion centers that have 
some real bricks-and-mortar problems that right now fall 
outside of our guidelines.
    We will look at that, and we will see if that, for whatever 
reason, needs to be adapted or changed. So, we realize this is 
a very dynamic and changing process and that this whole fusion 
center stuff is like building an airplane while in flight. So 
we are not trying to close our minds to saying, sorry, that is 
just verboten, we are not going to do that. At the same time, 
we have to--obviously, we cannot say yes to everyone.
    So everything is always being looked at, Senator, and I 
think we are trying the best that we can to try and meet their 
requirements, with also keeping in mind our fiscal and our 
monetary restraints.
    Senator Pryor. Good. Well, let's continue to talk about 
that because it appears that Congress had one intent, maybe the 
grant guidelines say something a little differently. But let's 
keep watching that and see if we can make sure that we are all 
on the same page there.
    Let me also ask our two agency witnesses here, you both 
have talked about how fusion centers are a relatively new 
concept, and how they are growing, and how they differ from 
center to center. You mentioned it is like trying to build an 
airplane while you are in flight. I know that you all have 
spent a lot of time on these fusion centers. What do you hope 
to achieve with them over the next year? Obviously, we are 
talking about crime prevention and terrorism prevention, but in 
terms of the fusion centers themselves, what would you like to 
see accomplished over the next 12 months? In other words, tell 
us what your goals might be and what we might be looking for 
over the next 12 months to make sure these are up and running 
and effective.
    Mr. Tomarchio. I think one of the biggest and most 
important challenges that we face and one thing I would like to 
see us do more of and maybe do it better is to tackle the issue 
of training. I know that Captain Rapp spoke a little bit about 
that.
    I think as a result of the fact that we are melding two 
cultures, we are melding a law enforcement and criminal 
intelligence culture with an intelligence culture. And as I 
think Captain Rapp said, there are instances where folks in the 
fusion centers do not understand the Federal intelligence 
community, they do not understand the intelligence cycle. And I 
think what we need to do collectively, both the Federal 
Government, the State and locals, is to ensure that we can 
raise the amount of training and awareness in the fusion 
centers of what needs to be done.
    The folks that I have met in the fusion centers are 
incredibly motivated to do the right thing. They need the tools 
and they need the training to do that. And I think that that is 
one of the biggest priorities that I think we have to have. We 
have to be able to get mobile training teams out to the 
centers. We have to be able to bring in folks from the centers 
to come to DHS or come to the FBI to receive training. There 
are numerous courses out there that exist that would be 
beneficial to these folks.
    Now, the problem that we understand is that it is difficult 
if you are a police officer or if you are a watch commander in 
a fusion center to send one of your best analysts to Washington 
for 8 weeks to go to CIA University and receive an analyst 
course. We realize that is a difficulty. We have to find a way 
to bring that knowledge to them, whether it is through online 
training, whether it is through train the trainer. I think we 
have to start looking at that, and we are doing that. But I 
think that is a very important challenge for us and I think one 
that will be met, but, again, it is an ongoing job.
    Senator Pryor. All right. Do you want to comment, Mr. 
Hitch?
    Mr. Hitch. I certainly agree on the training and also 
technical assistance. One of the things that was mentioned 
earlier about these annual fusion center meetings that are 
held, the recent one in San Francisco, it shows the tremendous 
demand for the information that is being provided by both DHS 
and DOJ. There were people who could not sign up; there just 
was not enough room for them. We had a huge audience, and I 
expect that to continue.
    Another thing is, anecdotally you still hear about some 
organizational issues because this is new and cultures need 
changing. And I think the agreements are there, the President's 
information-sharing plan is clear, but yet that does not mean 
that it works out very smoothly every single day. And that is 
what I would like to see happen; as issues happen, I think we 
need to resolve them because our guidance is clear. So I would 
like to see that. That is really more of a smooth working 
machine as opposed to organizations that are in a start-up 
mode.
    Senator Pryor. Great. And I assume there will be some new 
fusion centers coming online. I know my home State of Arkansas 
is in the process of setting one of those up. I do not know if 
they have made final decisions or not. And I am sure other 
States and regions are doing that.
    Well, listen, I want to thank you all for being here and 
being part of this panel. And, Ms. Larence, I understand that 
this is your second time before the Subcommittee. Is that 
right?
    Ms. Larence. It is, sir.
    Senator Pryor. And you win the prize because we haven't 
ever had the same witness twice. [Laughter.]
    Ms. Larence. Thank you.
    Senator Pryor. And we are going to hold a hearing next year 
for you to come to.
    Ms. Larence. It is a deal.
    Senator Pryor. Based on one of your GAO reports, just give 
us any ideas and we will have a hearing--no, I am teasing about 
that. But thank you. It is great to have you back and great to 
have our witnesses here. And like I said a few moments ago, we 
are going to leave the record open for 2 weeks. We are going to 
include all of your prepared written statements. If you have 
charts or anything else we can include those in the record.
    I want to thank you for your time and your preparation, and 
once more thank you all for being here today. But even more 
importantly, thank you for doing what you do because you all 
are making a difference, and we appreciate it very much. The 
good news is I am going to be able to get over and get those 
votes cast in a few minutes.
    So, with that, I will adjourn the hearing. Thank you.
    [Whereupon, at 3:23 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 42748.001

[GRAPHIC] [TIFF OMITTED] 42748.002

[GRAPHIC] [TIFF OMITTED] 42748.003

[GRAPHIC] [TIFF OMITTED] 42748.004

[GRAPHIC] [TIFF OMITTED] 42748.005

[GRAPHIC] [TIFF OMITTED] 42748.006

[GRAPHIC] [TIFF OMITTED] 42748.007

[GRAPHIC] [TIFF OMITTED] 42748.008

[GRAPHIC] [TIFF OMITTED] 42748.009

[GRAPHIC] [TIFF OMITTED] 42748.010

[GRAPHIC] [TIFF OMITTED] 42748.011

[GRAPHIC] [TIFF OMITTED] 42748.012

[GRAPHIC] [TIFF OMITTED] 42748.013

[GRAPHIC] [TIFF OMITTED] 42748.014

[GRAPHIC] [TIFF OMITTED] 42748.015

[GRAPHIC] [TIFF OMITTED] 42748.016

[GRAPHIC] [TIFF OMITTED] 42748.017

[GRAPHIC] [TIFF OMITTED] 42748.018

[GRAPHIC] [TIFF OMITTED] 42748.019

[GRAPHIC] [TIFF OMITTED] 42748.020

[GRAPHIC] [TIFF OMITTED] 42748.021

[GRAPHIC] [TIFF OMITTED] 42748.022

[GRAPHIC] [TIFF OMITTED] 42748.023

[GRAPHIC] [TIFF OMITTED] 42748.024

[GRAPHIC] [TIFF OMITTED] 42748.025

[GRAPHIC] [TIFF OMITTED] 42748.026

[GRAPHIC] [TIFF OMITTED] 42748.027

[GRAPHIC] [TIFF OMITTED] 42748.028

[GRAPHIC] [TIFF OMITTED] 42748.029

[GRAPHIC] [TIFF OMITTED] 42748.030

[GRAPHIC] [TIFF OMITTED] 42748.031

[GRAPHIC] [TIFF OMITTED] 42748.032

[GRAPHIC] [TIFF OMITTED] 42748.033

[GRAPHIC] [TIFF OMITTED] 42748.034

[GRAPHIC] [TIFF OMITTED] 42748.035

[GRAPHIC] [TIFF OMITTED] 42748.036

[GRAPHIC] [TIFF OMITTED] 42748.037

[GRAPHIC] [TIFF OMITTED] 42748.038

[GRAPHIC] [TIFF OMITTED] 42748.039

[GRAPHIC] [TIFF OMITTED] 42748.040

[GRAPHIC] [TIFF OMITTED] 42748.041

[GRAPHIC] [TIFF OMITTED] 42748.042

[GRAPHIC] [TIFF OMITTED] 42748.043

[GRAPHIC] [TIFF OMITTED] 42748.044

[GRAPHIC] [TIFF OMITTED] 42748.045

[GRAPHIC] [TIFF OMITTED] 42748.046

[GRAPHIC] [TIFF OMITTED] 42748.047

[GRAPHIC] [TIFF OMITTED] 42748.048

[GRAPHIC] [TIFF OMITTED] 42748.049

[GRAPHIC] [TIFF OMITTED] 42748.050

[GRAPHIC] [TIFF OMITTED] 42748.051

[GRAPHIC] [TIFF OMITTED] 42748.052

[GRAPHIC] [TIFF OMITTED] 42748.053

[GRAPHIC] [TIFF OMITTED] 42748.054

[GRAPHIC] [TIFF OMITTED] 42748.055

[GRAPHIC] [TIFF OMITTED] 42748.056

[GRAPHIC] [TIFF OMITTED] 42748.057

[GRAPHIC] [TIFF OMITTED] 42748.058

[GRAPHIC] [TIFF OMITTED] 42748.059

[GRAPHIC] [TIFF OMITTED] 42748.060

[GRAPHIC] [TIFF OMITTED] 42748.061

[GRAPHIC] [TIFF OMITTED] 42748.062

[GRAPHIC] [TIFF OMITTED] 42748.063

[GRAPHIC] [TIFF OMITTED] 42748.064

[GRAPHIC] [TIFF OMITTED] 42748.065

[GRAPHIC] [TIFF OMITTED] 42748.066

[GRAPHIC] [TIFF OMITTED] 42748.067

[GRAPHIC] [TIFF OMITTED] 42748.068

[GRAPHIC] [TIFF OMITTED] 42748.069

[GRAPHIC] [TIFF OMITTED] 42748.070

[GRAPHIC] [TIFF OMITTED] 42748.071

[GRAPHIC] [TIFF OMITTED] 42748.072

[GRAPHIC] [TIFF OMITTED] 42748.073

[GRAPHIC] [TIFF OMITTED] 42748.074

[GRAPHIC] [TIFF OMITTED] 42748.075

[GRAPHIC] [TIFF OMITTED] 42748.076

[GRAPHIC] [TIFF OMITTED] 42748.077

[GRAPHIC] [TIFF OMITTED] 42748.078

[GRAPHIC] [TIFF OMITTED] 42748.079

[GRAPHIC] [TIFF OMITTED] 42748.080

[GRAPHIC] [TIFF OMITTED] 42748.081

[GRAPHIC] [TIFF OMITTED] 42748.082

[GRAPHIC] [TIFF OMITTED] 42748.083

[GRAPHIC] [TIFF OMITTED] 42748.084

                                 <all>

</pre></body></html>
